No, 20-1183

IN THE SUPREME COURT
OF THE UNITED STATES

Tri-State Zoological Park of Western Maryland,
Inc., Animal Park, Care & Rescue, Inc., and Robert
L. Candy

Petitioners,

People for the Ethical Treatment of Animals, Inc.
Respondent.

CERTIFICATION OF COMPLIANCE WITH
RULE 33.1

Now comes the undersigned, counsel of record for
the Petitioner and a member of the bar of this Court,
and hereby certifies that the Reply Brief in Support
of the Petition for Certiorari filed in this case
complies with the typeface and word count
requirements of Rule 33.1, in that the font is
Century Schoolbook, 12 point font for the text,
contains no footnotes, and contains 1445 words,
excepting those portions not required to be counted
by Rule 33.1.

 

 

  
 

. KRAUSE

el of Record
KAGAN, STERN,
MARINELLO
& BEARD, LLC
238 West Street
Annapolis, MD 21401
443-994-0403
krause@kaganstern.com

L}rs hy

Date

 

 

 
